U.S. Department of Agriculture
  Office of Inspector General
       Southwest Region
          Audit Report



      FARM SERVICE AGENCY
    RISK MANAGEMENT AGENCY
   RESOLUTION OF PRODUCTION
DIFFERENCES FOR CROP INSURANCE
AND DISASTER ASSISTANCE AND/OR
    LOAN DEFICIENCY PAYMENTS




              Report No.
              50099-2-Te
              May 2001
              UNITED STATES DEPARTMENT OF AGRIC ULTURE

                                  OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250


DATE:                May 14, 2001

REPLY TO
ATTN OF:      50099-2-Te

SUBJECT:      Resolution of Production Differences for Crop Insurance and Disaster
              Assistance and/or Loan Deficiency Payments

TO:           James R. Little
              Acting Administrator
              Farm Service Agency

              Phyllis Honor
              Acting Administrator
              Risk Management Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff
              Farm Service Agency

              Garland Westmoreland
              Deputy Administrator
                 for Risk Compliance
              Risk Management Agency


This report presents the results of our audit of the resolution of production differences for
crop insurance and disaster assistance and/or loan deficiency payments. The written
responses to the draft report are included as exhibits B and C with excerpts and the Office
of Inspector General’s position incorporated into the relevant sections of the report.

Management decisions have not been reached for Recommendations Nos. 1, 2, and 3.
The Findings and Recommendations section of the report includes a description of the
status of the management decision for each recommendation.
In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation
for those recommendations for which a management decision has not
yet been reached. Please note that the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance, and final action to be taken within 1 year of each management decision.
Correspondence concerning final actions should be addressed to the Office of the Chief
Financial Officer.

We appreciate the assistance and cooperation provided by your staff during the audit.



       /s/
RICHARD D. LONG
Acting Assistant Inspector General
  for Audit
                        EXECUTIVE SUMMARY
                     FARM SERVICE AGENCY
                   RISK MANAGEMENT AGENCY
 RESOLUTION OF PRODUCTION DIFFERENCES FOR CROP INSURANCE AND
     DISASTER ASSISTANCE AND/OR LOAN DEFICIENCY PAYMENTS

                             REPORT NO. 50099-2-Te


                                      We initiated this audit to identify cases with
                                      significant differences in reported production for
     RESULTS IN BRIEF                 crop insurance indemnities and Crop Loss
                                      Disaster Assistance Program (CLDAP)
         payments and/or Loan Deficiency Payments (LDP) to determine if producers
         obtained unwarranted benefits under these programs. Generally, we
         selected for review a number of producers in Texas who received LDP’s on
         commodities for which Risk Management Agency (RMA) showed zero
         production. We also wanted to determine whether adequate follow-up
         actions were taken by RMA Compliance and Farm Service Agency (FSA) to
         resolve crop production differences that were reported to them.

           In the majority of the cases we reviewed, the differences in production were
           resolved without fault to either the producer or the agency. In our sample
           cases, we found that production differences could generally be attributed to
           fundamental differences in FSA and RMA definitions and program
           procedures.      For example, FSA allowed LDP’s when crops were
           contaminated with aflatoxin with no production adjustment for quality.
           However, crop insurance reduces production to count when the crop contains
           aflatoxin. Because no major problem areas came to our attention during the
           review, we determined that additional audit work relating to differences in
           1998 crop-year production was not necessary and ended this phase of the
           audit.

           Although we found RMA and FSA follow-up actions were adequate, in one
           isolated incident, we determined that RMA did not properly resolve
           discrepancies between crop insurance records and FSA records. We found
           that producers A and B were overpaid a total of $56,175 in crop insurance
           indemnity payments because their claim was based on unsupported
           information and improper loss adjustment procedures.

           Test results based on corn samples submitted to a lab by producers A and
           B’s loss adjuster were used in the loss adjustment. The test results reduced
           the producer’s production to count to zero due to high aflatoxin levels. We
           determined these results were questionable because:




USDA/OIG-A/50099-2-Te                                                        Page i
                  1) there was no documentation showing that a loss adjuster visited
                     producer A’s farm and no identification on any of the testing lab
                     documents to indicate that the corn samples used came from
                     producer A’s farm,
                  2) testing of the corn performed at a local grain elevator shortly after
                     harvest showed low levels of aflatoxin and producer A
                     subsequently sold the corn near the market price, and
                  3) samples used for the testing lab were not representative of
                     producer A’s corn crop because the results only showed samples
                     of white corn when more than half of producer A’s corn in was
                     yellow corn.

           In our opinion, the lab results should not have been used to reduce
           production to count for aflatoxin. Additional evidence suggests that the corn
           did not have an economic level of aflatoxin that would result in a quality
           adjustment. We also questioned why the corn was not destroyed,
           considering the reportedly high levels of aflatoxin contamination reduced the
           production to count to zero. Without a quality adjustment, producers A and B
           would have exceeded their guarantee and would not have been paid a crop
           insurance indemnity payment.

           We provided the insurance company with a Statement of Conditions that
           provided them with information about our findings and recommendations.
           The insurance company disagreed that the claims were incorrectly adjusted.
            Further, both the insurance company and RMA Compliance determined that
           RMA procedure did not require destruction of the crop because producer A’s
           corn was not “zero-valued.” (The adjuster had assigned to the crop a value of
           $0.22 per bushel.) In its written response to this report, RMA national office
           stated that this crop should have been destroyed and provided the
           appropriate manual instruction.

           In addition, producer A received a 1998 LDP from FSA on ineligible corn
           production. This occurred because the producer had previously put the
           same production into a commodity loan. As a result, producer A was paid a
           LDP of $721.14 for which he was not eligible.

                                    We recommend RMA: (1) recover the    1998
                                    crop insurance payments totaling $56,175
 KEY RECOMMENDATIONS                because of a flawed loss appraisal, and
                                    (2) perform a limited review of claims to
        determine whether zero-valued crops are being destroyed in accordance
        with procedure. Also, we recommend that FSA recover the $721.14
        ineligible LDP paid to producer A.

                                 RMA and FSA provided written responses to
                                 the draft report (see exhibits B and C)
    AGENCY RESPONSE              concurring with our recommendations to recover
                                 monies from producers A and B. RMA did not
        concur with Recommendation No. 2 as previously stated in the draft report.

USDA/OIG-A/50099-2-Te                                                          Page ii
           RMA interpreted the recommendation as instructing RMA to review all zero-
           production claims and determine if the production was destroyed in
           accordance with the Loss Adjustment Manual (LAM). RMA said it is not
           possible or feasible to review and make determinations for all zero-
           production claims.

                                      We agreed with RMA’s and FSA’s planned
                                      corrective action for Recommendations Nos. 1
        OIG POSIT ION                 and 3 but we need additional documentation to
                                      reach management decision.          We revised
          Recommendation No. 2 because we believe that there needs to be at least a
          limited review of zero production claims due to public health concerns. The
          conditions needed to reach management decision are set forth in the
          findings and recommendations section of the report.




USDA/OIG-A/50099-2-Te                                                     Page iii
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY............................................................................................................i
   RESULTS IN BRIEF ...............................................................................................................i
   KEY RECOMMENDATIONS ................................................................................................ii
   AGENCY RESPONSE...........................................................................................................ii
   OIG POSITION........................................................................................................................iii
TABLE OF CONTENTS ...........................................................................................................iv
INTRODUCTION.........................................................................................................................1
   BACKGROUND......................................................................................................................1
   OBJECTIVES..........................................................................................................................2
   SCOPE .....................................................................................................................................2
   METHODOLOGY ....................................................................................................................3
FINDINGS AND RECOMMENDATIONS................................................................................5
   CHAPTER 1.............................................................................................................................5
   UVALDE COUNTY PRODUCERS RECEIVE INELIGIBLE RMA AND FSA
   BENEFITS ...............................................................................................................................5
   FINDING NO. 1 ........................................................................................................................5
   CROP INSURANCE CLAIMS NOT PROPERLY ADJUSTED.......................................5
   RECOMMENDATION NO. 1 .............................................................................................. 11
   RECOMMENDATION NO. 2 .............................................................................................. 11
   FINDING NO. 2 ..................................................................................................................... 13
   INELIGIBLE LOAN DEFICIENCY PAYMENT................................................................ 13
   RECOMMENDATION NO. 3 .............................................................................................. 13
   EXHIBIT A – SUMMARY OF MONETARY RESULTS.................................................. 14
   EXHIBIT B – FSA RESPONSE TO DRAFT REPORT ................................................. 15
   EXHIBIT C – RMA RESPONSE TO DRAFT REPORT ................................................ 18
ABBREVIATIONS ................................................................................................................... 20




USDA/OIG-A/50099-2-Te                                                                                                          Page iv
                             INTRODUCTION

                                        The Federal Crop Insurance Corporation (FCIC)
                                        is a wholly owned Government corporation
        BACKGROUND                      created under Title V of the Agricultural
                                        Adjustment Act of 1938, dated February 16,
          1938, to improve the economic stability of agriculture through a system of
          crop insurance. The Federal Crop Insurance Act of 1980, dated September
          26, 1980, contained provisions for expanding crop insurance to more crops
          and for providing coverage in most counties throughout the United States.
          This Act mandated, to the maximum extent possible, delivery of Federal crop
          insurance by privately owned insurance companies and provided for
          subsidizing the program by FCIC. Insurance companies enter into standard
          reinsurance agreements with FCIC, which contain provisions for the
          marketing, distributing, servicing, training, and loss adjusting by companies
          for crop insurance that they sell. Insurance companies depend on agents
          and contracted loss adjusters to aid in selling and administering their
          policies. The RMA within the United States Department of Agriculture
          (USDA) has the overall responsibility to administer the Federal crop
          insurance program.

           Producers can obtain crop insurance from FCIC on most crops for protection
           against losses from natural disasters such as drought and hail. When losses
           are incurred, the crops are adjusted by an insurance company to determine
           the producers’ actual production in relation to guaranteed yields that are set
           for insurance purposes. Producers receive crop insurance indemnity
           payments when actual production is lower than the guaranteed yields.

           The FSA within USDA has responsibility for administration of price support
           programs. Legislative authority for the price support programs is contained
           in the Agricultural Adjustment Acts of 1933 and 1938, as amended by the
           Food Security Acts of 1981 and 1985, the Food, Agriculture, Conservation,
           and Trade Act of 1990, and the Omnibus Budget Reconciliation Acts of 1990
           and 1993, and the Federal Agriculture Improvement and Reform (FAIR) Act
           of 1996. Sections 131 through 136 of the FAIR Act required administration
           of a nonrecourse marketing assistance loan and LDP program on a total of
           16 commodities for the 1996 through 2002 crop years.


           Producers can also obtain commodity loans from FSA for the production
           they harvest from the crops that they raise. In lieu of loans, producers can
           obtain LDP’s when the market price of a commodity (crop) is below the

USDA/OIG-A/50099-2-Te                                                         Page 1
           county loan rate. Producers are required to report their actual harvested
           production for use in computing the LDP’s they receive.

           For the 1998 crop year, the Secretary authorized LDP benefits on corn
           silage or wheat harvested for hay or other crops harvested as silage,
           ensilage, cobbage, cracked, rolled, or crimped, or using machinery that
           mutilates or mixes the grain with other parts of the plant. In addition,
           contaminated (e.g., aflatoxin) commodities were eligible regardless of the
           contamination levels for LDP with no production adjustment for quality.

           Also, for the 1998 crop year, producers who received crop insurance
           indemnity payments for crop disaster losses were also eligible for CLDAP
           payments from FSA. RMA provided FSA with a computer-generated
           download for use in making CLDAP payments to crop insurance producers
           who received indemnity payments for crop losses. FSA Notice DAP-25
           provided actions to be taken to address suspected program abuse
           discovered by FSA county offices.         When the suspected abuse is
           determined to involve crop insurance, the county offices were instructed to
           refer the case to the FSA State Office, who then sent the case to the nearest
           RMA Risk Compliance Field Office. The notice required the county offices to
           include information such as crop acreage, producer shares, reported
           production, and other producer information as reported to FSA and RMA.
           RMA Compliance Field Offices were to review the information and conduct
           the fieldwork necessary to explain the discrepancies. RMA Compliance
           would take action, if necessary, to correct any problems related to crop
           insurance. RMA Compliance would then forward their findings to the FSA
           State Office so that FSA could make any changes, if necessary, to the
           producers’ CLDAP applications.

                                   The objective of this audit was to identify cases
                                   with significant differences in reported
        OBJECTIVES                 production for crop insurance indemnities and
                                   CLDAP payments and/or LDP’s to determine if
         producers obtained unwarranted benefits under these programs. We also
         determined whether adequate follow-up actions were taken by RMA
         Compliance and FSA to resolve crop production differences that were
         reported to them.

                                         We queried the RMA data base in Kansas City
                                         for the 1998 crop year and identified, as of
             SCOPE                       December 15, 1999, 54,058 indemnities
                                         totaling over $302 million paid on zero
           production for all crops in Texas. We also obtained a listing of 1998 LDP’s
           from the USDA FSA website. The FSA listing showed, as of April 6, 1999,
           LDP’s of over $107 million were paid to producers in 180 Texas counties
           for the 1998 crop year. We compared the RMA and


USDA/OIG-A/50099-2-Te                                                        Page 2
              FSA listings and selected for review five counties that had both high
              indemnities and high LDP’s.

              At each FSA county office, we judgmentally selected for review a number of
              producers who generally received LDP’s on commodities for which RMA
              showed zero production:

                          Number of
                          Producers
                                                                       1                        2
    County                Reviewed             Crop             LDP’s              Indemnities
    Dawson                   10              Cotton             $100,258.23               $274,446
    Gaines                   10              Cotton              220,209.85              1,022,879
    Lamar                    23              Soybean              11,239.44                113,321
    McLennan                 12              Corn                 36,911.95                367,072
    Williamson                5              Corn                 67,585.89                  57,409
    Total                    60                                 $436,205.36             $1,835,127

        1 Cotton payments earned prior to adjustments for cotton research and promotion deductions
        2 Includes only indemnities on units with zero production to count

              For selected producers, we compared all production reported to FSA and
              RMA. We did not perform a reliability test on the RMA and FSA data used to
              select sample counties and producers. During our analysis of the samples
              cases, we verified the accuracy of the RMA and FSA data and found no
              errors.

              In addition, we performed a preliminary review of the 18 Texas cases
              (20 producers) that FSA referred to RMA to resolve differences in
              1998 crop-year production used by the agencies to compute crop insurance
              and disaster benefits. We reviewed the information memorandums and
              documentation provided by RMA on all 18 referrals and determined that
              17 cases where properly resolved. However, we determined that one
              referral involving two corn producers in Uvalde County required a more
              thorough review. The audit fieldwork was conducted from November 1999 to
              December 2000.

              This audit was conducted in accordance with the Government Auditing
              Standards issued by the Comptroller General of the United States.
              Accordingly, the audit included such tests of program and accounting
              records as considered necessary to meet the audit objectives.

                                     To accomplish the audit objectives, we obtained
                                     and used 1998 crop insurance indemnity data
       METHODOLOGY                   based on zero production for all crops in Texas
                                     and a listing of 1998 LDP’s in Texas to select
          sample counties for review. We obtained and reviewed referrals and their
          supporting documentation at the Texas State FSA Office in College Station,
          Texas, and RMA Compliance Office in Dallas, Texas, to determine if the

USDA/OIG-A/50099-2-Te                                                                         Page 3
           referrals were properly resolved. At the county offices, we reviewed selected
           producers’ crop insurance download data and CLDAP and/or LDP files to
           determine if the producers obtained unwarranted benefits under any of these
           programs. This included, but was not limited to, interviewing and obtaining
           documentation from producers, cooperative and grain elevator managers,
           insurance agency personnel, testing lab personnel, and other sources as
           deemed necessary.




USDA/OIG-A/50099-2-Te                                                        Page 4
           FINDINGS AND RECOMMENDATIONS

                  UVALDE COUNTY PRODUCERS RECEIVE
 CHAPTER 1
                  INELIGIBLE RMA AND FSA BENEFITS
           For crop year 1998, producer A raised corn on 269 acres of his own land at
           a 100 percent share and on 440 acres of producer B’s land at an 80 percent
           share. Producer B received a 20 percent share as a landowner but had no
           other involvement in the crop. We found that producers A and B received
           excessive crop insurance payments totaling $56,175, because their crop
           insurance claims were improperly adjusted, and producer A received an
           ineligible LDP payment on corn of    $721.14 because the corn had already
           been used as collateral for a commodity loan.

     FINDING NO. 1                    Producers A and B received crop insurance
                                      indemnity payments on their 1998 corn crop for
CROP INSURANCE CLAIMS                 which they were not eligible. This occurred
NOT PROPERLY ADJUSTED                 because their claim was based on an
           unsupported quality adjustment for aflatoxin. As a result, producers A and B
           were overpaid $47,526 and $8,649, respectively.

           During the 1998 CLDAP, FSA Notice DAP-25 required FSA county offices
           to report suspected abuse of crop insurance to the State FSA office, which in
           turn referred the matter to the nearest RMA Risk Compliance Field Office. In
           May 1999, the Uvalde County FSA Office sent a referral of suspected crop
           insurance abuse by producers A and B to the Texas State FSA Office. The
           abuse related to differences in reported crop shares, production, and acres.
            The State office sent this information to the RMA Risk Compliance Field
           Office for resolution. The RMA field office, in turn, sent the referral to the
           insurance company who sold the insurance and adjusted the claims.

           The insurance company found the producers incorrectly reported their 1998
           corn acreage, but that the differences did not result in an overpayment that
           exceeded the RMA approved tolerance. RMA stated the insurance company
           would revise the acreage amounts on actual production history data for crop
           year 1999. As for the production differences, the insurance company
           concluded the insurance adjuster correctly determined production to count by
           using a quality adjustment factor for aflatoxin to adjust the production to zero.




USDA/OIG-A/50099-2-Te                                                           Page 5
                 Aflatoxin is a by-product of fungal activity promoted by environmental
                 conditions that are stressful to affected host plants, such as corn. Most grain
                 elevators and livestock feed yards have aflatoxin testing equipment but for
                 insurance purposes, an aflatoxin test must be performed by a disinterested
                 testing facility that conducts certified industry-standard tests. Aflatoxin tests
                 that result in 20 parts per billion (ppb) or less are considered safe for human
                 consumption by the Food and Drug Administration. Corn with aflatoxin levels
                 between 20 and 300 ppb can be fed to livestock and used for other
                 purposes, depending on the level. Corn with aflatoxin levels of higher than
                 300 ppb cannot be used for any purpose. However, the corn can be
                 reconditioned using a variety of methods to lower the aflatoxin levels to a
                 usable condition, but these methods are expensive and usually not cost
                 beneficial.

                 FSA records show that on November 16, 1998, producer A applied for a
                 farm-stored loan on 54,400 bushels of 1998 crop-year corn. The production
                 was based on the producer’s certified production shown stored in 6 bins. A
                 loan of $112,608 was disbursed to the producer based on the 54,400
                 bushels of certified production.       To qualify for the loan, the producer
                 provided the county office results of aflatoxin sample testing of the corn by a
                 local farmer’s cooperative. Corn has to have less than 20 ppb aflatoxin to
                 qualify for an FSA commodity loan. Information about the aflatoxin levels and
                 type of corn for each bin follows:

       Bin No.            Estimated Bushels       Product Description         Aflatoxin Level
          1                    12,000                 Yellow Corn                  0 ppb
          2                    12,000                 Yellow Corn                  7 ppb
          3                      7,700                White Corn                   0 ppb
          4                      7,700                White Corn                   0 ppb
          5                      9,000                White Corn                   7 ppb
          7                      6,000                Yellow Corn                  8 ppb
Total Bushels                 54,400

                 Both producers A and B had their 1998 corn insured by the insurance
                 company through a local insurance agency in Hondo, Texas. FCIC records
                 provided by the insurance company showed that the producers provided a
                 notice of loss on December 15, 1998. Loss adjuster A took three samples
                 of corn to a certified testing facility in Selma, Texas.

                 The corn was tested on December 29, 1998, and showed the following:


         Sample No.                     Sample Description                 Aflatoxin Level
             1                             White Corn                          685 ppb
             2                             White Corn                          451 ppb
             3                             White Corn                          602 ppb



USDA/OIG-A/50099-2-Te                                                                 Page 6
           Loss adjuster B completed the loss adjustment records on January 20, 1999,
           showing harvested production of 37,478 bushels in 6 farm-stored bins.
           However, because of excess aflatoxin shown on the results of the tested
           corn, the adjuster assigned a value of only $0.22 per bushel to the corn, and
           further quality adjustments reduced the production to count to zero.

           We question the validity of the aflatoxin test results from the testing lab
           because:
                    1) There was no documentation showing that a loss adjuster
                       visited producer A’s farm and no identification on any of the
                       testing lab documents to indicate that the corn samples used
                       came from producer A,
                    2) Testing of the corn performed at a local grain elevator shortly
                       after harvest showed low levels of aflatoxin and producer A
                       subsequently sold the corn near the market price, and
                    3) Samples used for the testing lab were not representative of
                       producer A’s corn crop because the results only showed
                       samples of white corn when more than half of producer A’s
                       corn was yellow corn.

           Possibly Not Producer A and B’s Corn

           There was no information in the claims documents that shows loss adjuster A
           ever visited grain elevators which contained producer A’s corn. Loss adjuster
           A subsequently left the insurance company before the test results were
           completed. Loss adjuster B assumed the claim and obtained the lab results.


           We visited the lab and the lab manager provided us with documentation that
           was used to submit the corn samples and showed us their copy of the lab
           results. Neither the lab results nor the documents used to submit the corn
           samples had producer A’s name on them. Also, the manager said the
           person that brought the samples for testing did not provide any identifying
           information. Several copies of the lab results sent to us by the insurance
           company had producer A’s farm numbers handwritten on the lab results.
           However, they provided us one copy that also had no identifying information
           and the lab facility manager told us lab personnel did not handwrite the farm
           numbers on the lab results.

           Indications of Low Aflatoxin Levels

           Depending on the level of aflatoxin, grain elevators and other commodity
           brokers will discount the price they pay for corn. This discount varies from
           buyer to buyer. Although loss adjusters must use disinterested facilities to
           perform the aflatoxin test for claims, the presence of aflatoxin must have
           resulted in an actual reduction in value to qualify for a quality adjustment.


USDA/OIG-A/50099-2-Te                                                        Page 7
           This puts the validity of the corn used for the lab samples further in question
           because producer A sold his corn near the market price. Producer A
           received between $2.20 to $2.40 per bushel for his corn sold between
           February 1999 and August 1999. An independent broker that purchased
           some of producer A’s corn believed that the corn he bought contained
           aflatoxin levels between 20 and 100 ppb but had no documentation to
           support it. A local cooperative, which purchased the remaining amount of
           corn from producer A, said the corn was discounted for aflatoxin but did not
           have any records of aflatoxin testing.

           Neither buyer would tell us what the full market price was at the time they
           purchased producer A’s corn. Through interviews with other corn buyers in
           the area, we estimated that the full market price for good corn during this
           period ranged from $2.52 to $2.69. The corn buyers we interviewed said
           they discount 25 cents from the price they pay for corn when the level of
           aflatoxin is from 20 to 150 ppb. The buyers also said they would not
           purchase corn with aflatoxin levels exceeding 150 ppb. Therefore, we
           determined that the price producer A received for his corn reflected average
           discounts by grain elevators for corn with aflatoxin content ranging from 20 to
           150 ppb.

           In addition, an economic level of aflatoxin must be present in the grain prior
           to grain storage. Since aflatoxin levels can increase in grain storage, any
           potential loss due to aflatoxin presence in stored grain will be covered only if
           it is determined that economic levels occurred before storage.

           As stated earlier, aflatoxin results from a local cooperative in
           November 1998, shortly after grain storage, showed aflatoxin levels less than
           20 ppb. This corn was sold many months later at prices that reflect only a
           small increase in the levels of aflatoxin. This suggests that the corn did not
           have an economic level of aflatoxin present prior to grain storage.

           Corn Samples Used For Testing Not Representative

           Further proof that the corn used for the lab testing was not producer A’s lies
           in the fact that only white corn was tested. If loss adjuster A had gathered
           samples from producer A’s storage structures for testing, he would have also
           submitted a minimum of 3 samples of yellow corn for testing. Producer A
           had 3 bins of yellow corn along with 3 bins of white corn, which are supported
           by FSA loan documents and sales records.

           The RMA Loss Adjustment Manual, section 5, paragraph 112 B,
           January 1998 edition, states that the adjuster is responsible for taking
           enough samples to ensure that the combined samples will be representative
           of all production in the storage structure. This is done by using a probe or


USDA/OIG-A/50099-2-Te                                                          Page 8
           other various means to extract samples from various depths and areas of the
           storage structure. Therefore, if the loss adjuster had actually visited producer
           A’s farm to take representative samples for aflatoxin testing, the samples
           should have included yellow corn.

           In addition, through the Uvalde FSA County Executive Director and the RMA
           Compliance review, we found that 2 of the 6 bins (bin nos. 3 and 4) actually
           contained producer A’s 1997 white corn. (Although this meant that producer
           A received a 1998 commodity loan on 1997 corn, FSA did not taken any
           further action on this issue because producer A had paid back his
           commodity loan with interest.) If loss adjuster A had actually sampled
           producer A’s corn, the sample would have represented only 23 percent of
           the total 1998 corn crop (9,000 bushels of white corn in bin 5 divided by
           39,000 total 1998 bushels of corn) and possibly used corn from the
           producer’s 1997 corn crop.

           Based on our findings, we believe that producer A’s corn contained at worst
           very low levels of aflatoxin and should not have qualified for a quality
           adjustment. Producer A and B’s coverage level on their crop insurance
           policies was 50 percent, and their production guarantee was 36,008
           bushels of corn. Prior to adjustments for quality, loss adjuster B documented
           in his appraisal that producers A and B had 37,478 bushels of corn in
           storage structures, which exceeded their guarantee and, therefore,
           producers A and B would not have qualified for a loss.

           Insurance Company Position

           We sent the insurance company a Statement of Conditions that provided
           information about our findings and recommendations. In the response to the
           Statement of Conditions, the insurance company disagreed that the claims
           were incorrectly adjusted.

           The insurance company stated when samples are taken from farm-stored
           production or from unharvested, mature production to obtain quality
           determinations only adjusters can extract the samples. The samples used by
           the insurance company were extracted by an insurance company adjuster
           and taken to an approved testing facility. The results of the test were
           published in the adjuster’s name which is not an uncommon practice used by
           adjusters.

           The response also stated that the samples used for the FSA loan were
           extracted by producer A and taken to a local cooperative. They also contend
           that the FSA samples could have come from anywhere, possibly from
           previous crop-year production that was stored in the same bin(s).




USDA/OIG-A/50099-2-Te                                                          Page 9
                    Conclusion

                    The insurance companies response to the Statement of Conditions did not
                    address:
                          1) that the samples contained only white corn when only one of the
                              four 1998 bins contained white corn while the other three
                              contained yellow corn,
                          2) the lack of evidence to indicate that loss adjuster A ever visited the
                              grain elevators which contained producer A’s corn, and
                          3) lack of evidence to indicate that the corn used for the lab testing
                              actually came from producer A’s farm.

                    We determined the aflatoxin testing lab results to be unsound because
                    either: 1) the loss adjuster did not extract the lab samples from producer A’s
                    farm, or 2) the samples were highly unrepresentative of producer A’s crop
                    and possibly were from the previous year’s corn crop. Therefore, we relied
                    on FSA loan documentation and sales receipts to determine whether
                    producers A and B’s corn had an economic level of aflatoxin prior to grain
                    storage. We believe the local cooperatives testing of producer A’s corn
                    better reflects its condition because the price that producer A received
                    several months after harvest reflects aflatoxin levels between only 20 and 150
                    ppb. Since the corn was not tested prior to storage, there must be evidence
                    present to prove there was an economic level of aflatoxin prior to grain
                    storage. The insurance company lacks that evidence and, therefore, should
                    be held liable for the improper indemnities of $47,526 paid to producer A
                    and $8,649 paid to producer B.

                    Destruction of Zero-Valued Grain

                    During the audit, we questioned the nondestruction of producer A’s crop,
                    since the level of aflatoxin contamination was such that it reduced the
                    production to count to zero. Both the insurance company and RMA
                    Compliance stated that, according to RMA procedure, the corn did not have
                    to be destroyed. Specifically, RMA’s Loss Adjustment Manual1 requires
                    destruction of any mycotoxin-contaminated grain which is declared to be of
                    “zero value.” Since producer A’s corn had value (of $0.22 per bushel, as
                    determined by the adjuster), the corn was not required to have been
                    destroyed. The insurance company and RMA Compliance determined that
                    when the crop has some value, even though quality adjustments may result in
                    zero production-to-count, the crop may be released to the producer to sell.

                    In an informational memorandum dated March 1, 2001, the Director of
                    RMA’s Claims and Underwriting Division stated that he has repeatedly
                    reinforced to the insurance companies that for the 1998 crop year any zero

1
    FCIC-25010, paragraph 118 F (1), dated January 1998.

USDA/OIG-A/50099-2-Te                                                                  Page 10
           value crop was required to be destroyed. According to the Director, the fact
           that an initial value was assigned to the production does not end the
           computation of value. After all the required computations were made, the
           value of the production was zero and the grain was required to be destroyed.
            RMA has already incorporated changes in the 2001 Loss Adjustment
           Manual to ensure that such crops are destroyed. The changes include
           language to clarify that claims cannot be settled with zero production to count
           until the production is destroyed.        Additionally, the computation for
           determining the reduction in values for the 2001 crop year has been
           amended on all special provisions of insurance.

                                        RMA should recover the 1998 crop insurance
                                        payments for corn of $47,526 and $8,649 paid
 RECOMMENDATION NO. 1                   to producers A and B, respectively, from the
                                        insurance company.

           RMA Response

           RMA concurred with the recommendation. The Director of the Southern
           Regional Compliance Office plans to issue Reports of Initial Findings to the
           insurance company for crop year 1998 indemnity payments to producers A
           and B, as identified in the audit. RMA plans to complete this action by
           October 2001.

           OIG Position

           We agree with the planned corrective action. To reach a management
           decision, we need documentation showing the amounts owed the
           Government have been collected or set up as accounts receivable.




                                        Instruct RMA Compliance to perform a limited
                                        review of zero production claims and determine
 RECOMMENDATION NO. 2                   if the crops have been destroyed in accordance
                                        with the Loss Adjustment Manual procedures.

           RMA Response

           RMA did not concur with the recommendation as previously stated in the
           draft report. RMA interpreted the recommendation as instructing RMA to
           review all zero-production claims and determine if the production was
           destroyed in accordance with the LAM. In Texas alone, there were over


USDA/OIG-A/50099-2-Te                                                         Page 11
           54,000 indemnities with zero production; further, the RMA database does not
           capture the information necessary to identify production zeroed-out due to
           aflatoxin. Given the current level of resources available within RMA, it is not
           possible or feasible, i.e., cost effective, to review and make determinations
           for all zero-production claims. Further, RMA does not believe OIG has shown
           vulnerability exists of such magnitude as to require sure action on all zero-
           production claims.

           OIG Position

           OIG did not intend to recommend that RMA review all zero-production
           claims. During the exit conference, OIG and RMA discussed the feasibility
           and cost effectiveness of conducting such review.            Because grain
           contaminated with a high level of aflatoxin is not considered safe for human
           or animal consumption, we strongly feel that there needs to be at least a
           limited review of zero-production claims. It was OIG’s intent to make a
           general recommendation that RMA review such claims and to allow RMA
           flexibility in determining the scope of such review. We have revised our
           recommendation accordingly.




USDA/OIG-A/50099-2-Te                                                         Page 12
           FINDING NO. 2                       Producer A received a 1998 LDP on ineligible
                                               corn production. This occurred because the
         INELIGIBLE LOAN                       producer had previously put the same
       DEFICIENCY PAYMENT                      production into a commodity loan. As a result,
                     producer A was paid an LDP of $721.14 for which he was not eligible.

                     As presented previously in Finding No.1, on November 3, 1998, producer A
                     applied for a 1998 farm-stored commodity loan on 54,400 bushels of corn
                     which improperly included 15,400 bushels of 1997 white corn. This left an
                     estimated 39,000 bushels of 1998 corn in the remaining 4 bins
                     (30,000 bushels of yellow corn and 9,000 bushels of white corn).

                     Producer A’s 1998 commodity loan application should have been for only the
                     1998 corn of 39,000 bushels. Therefore, he used up his entire crop loan
                     eligibility because he only had actual 1998 production of 37,549 bushels. On
                     March 1, 1999, producer A applied for a 1998 LDP on 5,151 bushels of corn
                     and received $721.14. According to regulations,2 for the production to be
                     eligible for an LDP, the producer must agree to forego obtaining a
                     commodity loan. Therefore, since producer A had previously pledged all of
                     his 1998 production as collateral for a commodity loan, the production was
                     not eligible for an LDP.

                                                         FSA should recover the ineligible 1998 LDP of
                                                         $721.14 paid to producer A.
     RECOMMENDATION NO. 3


                     FSA Response

                     FSA concurred with the recommendation and has instructed the Texas State
                     FSA Office to advise the Uvalde County FSA Office to immediately take
                     actions to collect the ineligible LDP amount.

                     OIG Position

                     We agree with the planned corrective action. To reach a management
                     decision, we need documentation showing the amount owed the Government
                     has been collected or set up as an account receivable.




2
    7 CFR 1421.29 (b), dated January 1, 1998, edition.

USDA/OIG-A/50099-2-Te                                                                      Page 13
EXHIBIT A – SUMMARY OF MONETARY RESULTS


FINDING              RECOMMENDATION             DESCRIPTION       AMOUNT CATEGORY
NUMBER               NUMBER
      1                      1                     Improperly      $56,175     QCRR
                                                Adjusted Crop
                                                    Insurance
                                                  Indemnities
        2                            3          Ineligible Loan       721      QCRR
                                                   Deficiency
                                                   Payments
                                                      Total        $56,896

QCRR – Questioned Costs, Recovery Recommended




USDA/OIG-A/50099-2-Te                                                        Page 14
EXHIBIT B – FSA RESPONSE TO DRAFT REPORT




USDA/OIG-A/50099-2-Te                      Page 15
USDA/OIG-A/50099-2-Te   Page 16
USDA/OIG-A/50099-2-Te   Page 17
EXHIBIT C – RMA RESPONSE TO DRAFT REPORT




USDA/OIG-A/50099-2-Te                      Page 18
USDA/OIG-A/50099-2-Te   Page 19
                               ABBREVIATIONS


CLDAP      Crop Loss Disaster Assistance Program

FAIR Act   Federal Agriculture Improvement and Reform Act

FCIC       Federal Crop Insurance Corporation

FSA        Farm Service Agency

LAM        Loss Adjustment Manual

LDP        Loan Deficiency Payment

ppb        parts per billion

RMA        Risk Management Agency

USDA       United States Department of Agriculture




USDA/OIG-A/50099-2-Te                                       Page 20
